TN

C@OCKLE

2311 Douglas Street .
Omaha, Nebraska 68102-1214 Le ga 1B riefs
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
YUNG-KAI LU,
Petitioner,
vs.
UNIVERSITY OF UTAH, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 2765 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

4
General Notary :
ate ot Nebranl bez. oC Lhe Qudbiaw Be. Chk,
My Commission Expires Nov 24, 2020 +

 

Notary Public

 

39392
